APPENDIX - .01

la

mry

TOGO S^^^SLLE FL 320

UNITED
NORTH

3 MAR 2021 PM 3 L

OFFICE OF THE CLERK
CO

401 S.E. 1 ST AVENUE, SUITE 243

!

GAINESVILLE, FL 32601-680S

o

OFFICIAL BUSINESS

*—I

CL)
CJ)

FORWARDING SERVICE REQUESTED

03

0.

rH

CM

IsrH

$0,510
US POSTAGE
FIRST-CLASS
062S0008847680
»
32601

;

c

FILED USDC FLND GU
MAS 17’21 pm l: 18

00
O
T3
CD
'LL

NXXIE

fs-

CM
C

cu

E

BC:

3
cj

O

Q
CC

0

£

<
00
CM
00
O
O

>

CJ

CO

U3

0)

6

rH
rH

cn

03

O

Cl

Jj< o*

in
O

H
O
U

l

<2z

cr

oQ

/3

0003/10/21
061 DE 1
RETURN TO SENDER
VACANT
UNABLE TO FORWARD

32601689568

*1638-07 B20-03-45

cS

CM

is

Case l:19-cv-00323-AW-GRJ Document 27 Filed 03/17/21 Page 2 of 3
Case l:19-cv-00323-AW-GRJ Document 25 Filed 03/03/21 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
ADAM P McNIECE,

;

Plaintiff,

s,

v.

CASE No. 1:19-cv-323-AW-GRJ
:

TOWN OF YANKEETOWN,
et al.,

v
!

Defendants.
ORDER ON REMAND

hi
ji

Based on the mandate of the United States Court of Appeals for the Eleventh
Circuit (ECF No. 24), this court’s earlier order and judgment (ECF Nos. 13 & 14)
are VACATED. The clerk will enter a new judgment that says, “This case is

i

dismissed for failure to state a claim.” The clerk will then again close the file.
SO ORDERED on March 3, 2021.

I

!

s/ Allen Winsor
United States District Judge

3a

Case l:19-cv-00323-AW-GRJ Document 27 Filed 03/17/21 Page 3 of 3
Case l:19-cv-00323-AW-GRJ Document 26 Filed 03/03/21 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
ADAM P MCNIECE
CASE NO. 1:19-CV-00323-AW-GRJ

VS

i

TOWN OF YANKEETOWN et al
\

JUDGMENT
This case is dismissed for failure to state a claim.

JESSICA J. LYUBLANOVITS
CLERK OF COURT
March 3. 2021
DATE

Deputy Clerk: Kelli Malu

4a

I

*

APPENDIX - .02

5a

Case l:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 1 of 7
Page 1 of 7

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
ADAM P McNIECE,
Plaintiff,
v.

CASE NO. 1:19-CV-323-AW-GRJ

TOWN OF YANKEETOWN;
RALF BROOKES; LEVY COUNTY;
STATE OF FLORIDA; U.S. FEDERAL
GOVERNMENT; U.S. ATTORNEY,
Defendants.

REPORT AND RECOMMENDATION
Plaintiff, a resident of Niantic, Connecticut who is proceeding pro se,
initiated this case by filing a Complaint (ECF No. 1) and paying the civil
case filing fee. The Court concluded that Plaintiff’s original complaint failed
to establish a basis for the exercise of federal subject matter jurisdiction
and failed to otherwise state a claim for relief against the named
defendants, and the Court ordered Plaintiff to file an amended complaint.
ECF No. 4. Plaintiff then filed a First Amended Complaint, which was
stricken because Plaintiff failed to use the Court’s form for pro se
complaints and also exceeded the 25-page page limit of N.D. Fla. Local
Rule 5.7(B). The Court afforded Plaintiff an additional opportunity to file an
amended complaint. ECF No. 6. This case is now before the Court upon

Case l:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 2 of 7
Page 2 of 7

Plaintiffs Second Amended Complaint, ECF No. 7 (“Complaint”). For the
following reasons, it is respectfully recommended that the Complaint be
dismissed for lack of subject matter jurisdiction and failure to state a claim
upon which relief may be granted.
Plaintiff names the following defendants in his Complaint: The Town
of Yankeetown, Florida; Levy County, Florida; Attorney Ralf Brookes of
Cape Coral, Florida; the State of Florida; and the “U.S. Federal
Government/U.S. Attorney”. ECF No. 7. According to the allegations of
the Complaint, Plaintiff owns property in Yankeetown that was subject to
fines for code violations. Plaintiff alleges that Yankeetown brought him to
trial without notifying Plaintiff of “any charges or violations that [he] may
have committed,” and that Plaintiff is now paying fines of $100 per day for
“unknown and unspecified code violations.” Plaintiff alleges that
Yankeetown has placed a lien on all of his property in Levy County. ECF
No. 7 at 5.
Plaintiff asserts that he sought relief in Levy County court by way of a
“petition for a redress of grievances,” but the court recharacterized his case
as a “writ of certiorari” and dismissed it without a hearing, in violation of
Plaintiffs right to due process. Plaintiff alleges that the Special Master for
his case “acted as both Prosecutor and Judge,” and engaged in ex parte
communications with the local government, denying Plaintiff an impartial

Case 1:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 3 of 7
Page 3 of 7

referee. Plaintiff alleges that Yankeetown “provides its citizens with
expensive poisonous water,” and that the State of Florida and Governor
DeSantis have not adequately addressed the contaminated water issue.
Id. at 6.
Plaintiff contends that attorney Ralf Brookes, who represents the
Town of Yankeetown, claimed in county court that Plaintiff was only entitled
to a writ of certiorari instead of a petition for redress, and the court agreed
with Brookes’ argument. Id. He asserts that Levy County “ignored a
County Commissioner appeal, and a Land Classification appeal that [he]
requested.” Yankeetown “ignored” Plaintiff’s appeals, and “instead took
[him] directly to trial.” Id. Plaintiff claims that he has lost revenue due to
losing sales contracts on his properties because of the Yankeetown liens.
He also claims that Yankeetown has denied him electric service to his
property. Id.
Plaintiff claims that the foregoing facts establish violations of his
rights under the First, Fourth, Fifth, Eighth, and Fourteenth Amendments.
Plaintiff seeks injunctive and monetary relief. Id. at 7-9.
Since Plaintiff has paid the full filing fee, his Complaint is not subject
to the screening provisions of the in forma pauperis statute, 28 U.S.C. §
1915. Nevertheless, it is well established that federal courts are obligated
to inquire into subject matter jurisdiction sua sponte whenever it may be

Case l:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 4 of 7
Page 4 of 7

lacking. 1
Federal courts are courts of limited jurisdiction that possess only that
power authorized by the Constitution and federal statutes. See, e.g.,
Delaware v. Van Arsdall, 475 U.S. 673, 692 (1986). A plaintiff invoking the
court’s jurisdiction must establish the basis for such jurisdiction in the
complaint. See Taylor v. App!etonx 30 F.3rd 1365, 1367 (11th Cir. 1994).
Pursuant to 28 U.S.C. § 1332(a)(1), the Court has jurisdiction over cases
where there is complete diversity of citizenship among the parties and the
amount in controversy exceeds $75,000. Further, the Court has subject
matter jurisdiction over cases involving a federal question.2
Plaintiff contends that the basis for federal jurisdiction over his claims
is federal question jurisdiction, and that his claims arise under 42 U.S.C. §
1983 and Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971). ECF No. 7 at 3-5. Even liberally
construed, the allegations of the Complaint are insufficient to establish the
existence of a federal question. The promulgation and enforcement of
property and building codes is generally a matter of state and local law, and
a barebones allegation that Plaintiff has been denied a federal

See Cadet v. Bulger, 377 F.3d 1173, 1179 (11th Cir. Fla. 2004).
2 28 U.S.C. § 1331.

Case 1:19-CV-00323-AW-GRJ Document 8 Filed 01/16/20 Page 5 of 7
Page 5 of 7

constitutional right is insufficient to establish a basis for the exercise of
federal jurisdiction.
To assert a claim for relief under 42 U.S.C. § 1983, a plaintiff must
allege that: (1) an act or omission deprived him of a right, privilege, or
immunity secured by the Constitution or a statute of the United States; and
(2) the deprivation occurred under color of state law. Richardson v.
Johnson, 598 F.3d 734, 737 (11th Cir. 2010); see 42 U.S.C. § 1983
(providing a cause of action against a “person” who, under color of state
law, deprives a citizen of a right, privilege, or immunity secured by the
Constitution or laws). The plaintiff must allege facts showing an affirmative
causal connection between each individual defendant’s conduct and the
alleged deprivation of his constitutional rights. Zatlerv. Wainwright, 802 F.
2d 397, 401 (11th Cir. 1986).

If a plaintiff cannot satisfy these requirements

or fails to provide factual allegations in support of his claim, the complaint is
subject to dismissal. Id. at 737-38.
The Town of Yankeetown, Levy County, and the State of Florida are
not “persons” who may properly be named as defendants for purposes of
liability under § 1983 on the facts alleged in the Complaint. Further, there
are no factual allegations suggesting that Yankeetown or Levy County, as
governmental entities, are liable to Plaintiff under any other theory of
liability cognizable under § 1983, such as municipal liability. See Monell v.

Case l:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 6 of 7
Page 6 of 7

Department of Social Sen/s., 436 U.S. 658 (1978). Defendant Ralf Brookes
is an individual, but even assuming that he may be deemed a “state actor,”
the allegations of the Complaint are wholly insufficient to establish that
Brookes violated any of Plaintiff’s federal constitutional rights.
Moreover, under the Eleventh Amendment, states and state agencies
generally cannot be sued in federal court. Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 100 (1984); Abusaid v. Hillsborough Cty. Bd. of
Cty. Comm’rs, 405 F.3d 1298, 1302 (11th Cir. 2005). On the facts alleged,
Plaintiff’s claims against the “State of Florida” are barred by Eleventh
Amendment immunity.
Bivens created a cause of action against federal officials who violate
a person’s federal constitutional rights. In a Bivens action, defendants
may be liable to a plaintiff only if they are personally responsible or causally
connected to the alleged constitutional violation. Hope v. Bureau of
Prisons, 476 F. App’x 702 (11th Cir. 2012). The “U.S. Federal
Government/U.S. Attorney” are not properly named as defendants in a
Bivens action, and there are no factual allegations suggesting that any
federal official violated Plaintiff’s constitutional rights.
In sum, the allegations of the Second Amended Complaint fail to
state a cognizable claim under either § 1983 or Bivens, and therefore
Plaintiff has failed to establish a basis for the exercise of federal subject

Case l:19-cv-00323-AW-GRJ Document 8 Filed 01/16/20 Page 7 of 7
Page 7 of 7

matter jurisdiction. It is respectfully RECOMMENDED that this case should
be DISMISSED.
IN CHAMBERS this 16th day of January 2020.
6

GARY R. JONES
United States Magistrate Judge

NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations
must be filed within fourteen (14) days after being served a copy
thereof. Any different deadline that may appear on the electronic .
docket is for the court’s internal use only, and does not control. A
copy of objections shall be served upon all other parties. If a party
fails to object to the magistrate judge's findings or recommendations
as to any particular claim or issue contained in a report and
recommendation, that party waives the right to challenge on appeal
the district court's order based on the unobjected-to factual and legal
conclusions. See 11th Cir. Rule 3-1; 28 U.S.C. § 636.

Case l:19-cv-00323-AW-GRJ Document 13 Filed 02/03/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
ADAM P McNIECE,
Plaintiff,
v.

CASE NO. l:19-cv-323-AW-GRJ

TOWN OF YANKEETOWN,
et al.,
Defendants.

ORDER OF DISMISSAL
I have considered the magistrate judge’s January 16, 2020 Report and
Recommendation. ECF No. 8. I have also reviewed de novo the issues raised in
Plaintiffs objections. ECF No. 11. I have now determined that the Report and
Recommendation should be adopted.
Accordingly, it is now ORDERED as follows:
1.

The magistrate judge’s Report and Recommendation is adopted and

incorporated by reference in this Order.
2. The Clerk will enter a judgment that says “This case is dismissed for lack
of subject matter jurisdiction.” The Clerk will then close the file.
SO ORDERED on February 3, 2020.
s/ Allen Winsor
United States District Judge

Case: 20-10716

Date Filed: 06/16/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10716
Non-Argument Calendar

D.C. Docket No. l:19-cv-00323-AW-GRJ
ADAM P. MCNIECE,
Plaintiff-Appellant,
versus
TOWN OF YANKEETOWN,
RALF BROOKES,
Attorney,
LEVY COUNTY,
STATE OF FLORIDA,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of Florida
(June 16, 2020)

6a

Case: 20-10716

Date Filed: 06/16/2020

Page: 2 of 9

Before WILLIAM PRYOR, Chief Judge, WILSON and ROSENBAUM, Circuit
Judges.
PER CURIAM:
Adam McNiece appeals the sua sponte dismissal of his pro se second
amended complaint against the State of Florida, Levy County, the Town of
Yankeetown, its attorney, Ralf Brookes, and the “U.S. Federal Govemment/U.S.
Attorney.” See 42 U.S.C. § 1983. McNiece complained that the defendants
violated his constitutional rights when enforcing property codes and moved to
submit his future filings electronically. A magistrate judge denied McNiece’s
motion based on a local rule that limited pro se use of the electronic filing system,
N.D. Fla. L.R. 5.4, and twice advised McNiece that his complaint was deficient
• and that a failure to amend would result in a dismissal. The district court
determined that McNiece’s complaint failed to state a claim and dismissed it for
lack of subject-matter jurisdiction. We affirm the application of the local rule to
McNiece. We vacate the order dismissing McNiece’s complaint for lack of
subject-matter jurisdiction and remand with instructions to dismiss with prejudice
for failure to state a claim.
McNiece filed a complaint and a motion to use the electronic filing system.
He alleged that the state and local governments failed to notify him what property
codes he violated before imposing fines, filing liens on his property, and revoking
building permits and that the entities summarily denied his appeals and petition for

7a

Case: 20-10716

Date Filed: 06/16/2020

Page: 3 of 9

relief from the enforcement measures. McNiece complained that the actions
constituted an unlawful taking under the Fifth Amendment and an excessive fine
under the Eighth Amendment, interfered with his right to petition for redress of
grievances under the First Amendment, and violated his right to due process under
the Fourteenth Amendment.
The magistrate judge determined that McNiece’s complaint was
“insufficient to establish a basis for the exercise of federal jurisdiction” because
“[t]he promulgation and enforcement of property and building codes is generally a
matter of state and local law” and he offered only a “barebones allegation that [he]
has been denied a federal constitutional right. . . .” The magistrate judge stated that
McNiece’s complaint failed to state a claim under section 1983 because “[t]he
Town of Yankeetown, Levy County, and the State of Florida are not properly
named as defendants for purposes of liability under § 1983 on the facts alleged in
the Complaint”; he failed to “identify [any] individual ‘state actors’ who allegedly
violated his constitutional rights”; and his allegations failed to “establish that
[Brookes] is a ‘state actor’ for purposes of liability under § 1983” or that he
violated McNiece’s constitutional rights. The magistrate judge “afford[ed]
[McNiece] one opportunity to file an Amended Complaint that clearly establishes a
basis for . . . his claims” on the form provided to pro se litigants. The magistrate
judge also denied McNiece’s motion “to utilize electronic filing at this stage of the

8a

Case: 20-10716

Date Filed: 06/16/2020

Page: 4 of 9

case” because local rule 5.4(A)(3) limited its use by pro se parties and he had “not
presented] good cause” to be excepted from the rule.
McNiece filed a 177-page amended complaint that repeated the same
allegations against the same defendants, and he filed a motion to reconsider his
request to use the electronic filing system. The magistrate judge struck McNiece’s
amended complaint because he failed to use the form for pro se litigants and
exceeded the page limitation without “presenting] any good cause for doing so.”
The magistrate judge ordered McNiece to file a second amended complaint and
denied McNiece’s motion to reconsider because he had “not presented good cause
for allowing electronic filing.”
McNiece’s second amended complaint was similar to his earlier pleadings.
He repeated the same claims against the state and local governments and Brookes.
But he added the “U.S. Federal Govemment/U.S. Attorney” as a defendant; a
conclusory allegation that Levy County and Yankeetown violated his rights under
the Fourth Amendment; and an allegation about Bivens v. Six Unknown Named
Agents ofFederal Bureau of Narcotics, 403 U.S. 388 (1971), as a ground for
federal jurisdiction.
The district court adopted the magistrate judge’s recommendation to dismiss
McNiece’s second amended complaint for “fail[ure] to state a cognizable claim
under either § 1983 or Bivens, and therefore ... to establish a basis for the exercise

9a

Case: 20-10716

Date Filed: 06/16/2020

Page: 5 of 9

of federal subject matter jurisdiction.” The district court ruled that the complaint
failed to state a claim under section 1983 because the government entities were
“not ‘persons’ who may properly be named as defendants”; McNiece made “no
factual allegations suggesting] that Yankeetown or Levy County, as governmental
entities, are liable . . . under any other theory of liability cognizable under § 1983,
such as municipal liability”; McNiece alleged no facts to establish that Brookes
was a “state actor” or had violated his constitutional rights; and “[o]n the facts
alleged, [McNiece’s] claims against the ‘State of Florida’ [were] barred by
Eleventh Amendment immunity.” The district court also ruled that “[t]he ‘U.S.
Federal Govemment/U.S. Attorney’ are not properly named as defendants in a
Bivens action, and there are no factual allegations suggesting that any federal
official violated [McNiece’s] constitutional rights.”
One standard of review governs this appeal. We review the enforcement of
local rules for abuse of discretion. Mann v. Taser Int’l, Inc., 588 F.3d 1291, 1302
(11th Cir. 2009). We also review a sua sponte dismissal for abuse of discretion.
See Tazoe v. Airbus S.A.S., 631 F.3d 1321, 1335-36 (11th Cir. 2011). A district
court abuses its discretion when it dismisses an action sua sponte without
“providing] the plaintiff with notice of its intent to dismiss or an opportunity to
respond,” id., unless amendment “would be futile” or “the complaint is patently

10a

Case: 20-10716

Date Filed: 06/16/2020

Page: 6 of 9

frivolous.” Surtain v. Hamlin Terrace Found., 789 F.3d 1239, 1248 (11th Cir.
2015).
McNiece argues that he would have benefited from using the electronic
filing system, but we cannot say the district court abused its discretion by denying
McNiece’s request to do so. In the Northern District of Florida, “[a] document filed
by a party pro se . . . may—and if so required by an administrative order or an
order in a case must—be filed in hard copy .. . .” N.D. Fla. L.R. 5.4(A)(3). The
magistrate judge twice told McNiece that Rule 5.4(A)(3) limited the right ofpro se
litigants to submit filings electronically and he “ha[d] not presented good cause” to
qualify for an exception to the rule. McNiece does not argue that the magistrate
judge’s interpretation of Rule 5.4(A)(3) was unreasonable or that he should have
excepted McNiece from the rule. And McNiece does not argue that having to file
pleadings in hard copy thwarted his ability to litigate. He had access to the district
court through the mail, and he received and responded to its orders to amend his
complaint.
The district court erred by dismissing McNiece’s second amended complaint
for lack of subject-matter jurisdiction. “Jurisdiction ... is not defeated ... by the
possibility that the averments might fail to state a cause of action on which
petitioners could actually recover” because that determination “calls for a
judgment on the merits and not for a dismissal for want of jurisdiction.” Bell v.

11a

Case: 20-10716

Date Filed: 06/16/2020

Page: 7 of 9

Hood, 327 U.S. 678, 682 (1946). Federal courts have jurisdiction to entertain
actions that concern a federal question, 28 U.S.C. § 1331, like McNiece’s
complaint, which sought relief under the Constitution, 42 U.S.C. § 1983, and based
on unlawful conduct by a federal official, Bivens, 403 U.S. 388. When a complaint,
like McNiece’s, alleges a federal question, “dismissal generally must be for failure
to state a claim, Fed. R. Civ. P. 12(b), not for want of jurisdiction.” Marine
Coatings ofAla., Inc. v. United States, 792 F.2d 1565, 1567 (11th Cir. 1986). The
district court erred when it conflated McNiece’s “fail[ure] to state a cognizable
claim” with a “fail[ure] to establish a basis for the exercise of federal subject
matter jurisdiction.” The district court should have dismissed McNiece’s complaint
on the ground that it failed to state a claim for which relief can be granted. See Fed.
R. Civ. P. 12(b)(6).
Although it erred by conflating the merits with subject-matter jurisdiction,
the district court was entitled to consider whether McNiece’s complaint stated a
claim against any of the defendants. For “[a] pleading .. . [to] state[] a claim for
relief[,] it must contain ... a short and plain statement of the claim showing that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). That is, the “complaint
must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A
“claim has facial plausibility when the plaintiff pleads factual content that allows

12a

Case: 20-10716

Date Filed: 06/16/2020

Page: 8 of 9

the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id.
McNiece’s second amended complaint failed to state a plausible claim. To
state a claim under section 1983, a plaintiff must allege that a person, acting under
color of state law, deprived him of a federal civil right. Club Madonna, Inc. v. City
ofMiami Beach, 924 F.3d 1370, 1378 (11th Cir. 2019). McNiece alleged that Levy
County and Yankeetown tried him for “unknown and unspecified code violations,”
but he failed to allege that the alleged denial of due process was caused by a
municipal policy or custom. See Hoefling v. City ofMiami, 811 F.3d 1271, 1280
(11th Cir. 2016) (“The ‘touchstone of [a] § 1983 action against a government body
is an allegation that official policy is responsible for a deprivation of civil rights
protected by the Constitution.’”). And McNiece’s allegations that Brookes
succeeded in avoiding discovery and in having McNiece’s petition treated as a writ
of certiorari instead of as “a redress for grievances” alleged no unlawful conduct
by the attorney for Yankeetown. See Club Madonna, 924 F.3d at 1378. McNiece’s
complaint also failed to state a claim against the State of Florida, which is not a
person under section 1983. See Will v. Mich. Dep’t of State Police, 491 U.S. 58, 71
(1989). McNiece also failed to allege that a federal official acted unlawfully. See
Bivens, 403 U.S. at 396-97. And Bivens does not apply to a federal officer acting
in an official capacity, like the United States Attorney, or to the United States,

13a

Case: 20-10716

Date Filed: 06/16/2020

Page: 9 of 9

which is immune from suit. See Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 71-72
(2001).
We held in Surtain v. Hamlin Terrace Foundation, 789 F.3d 1239, that a
district court may sua sponte dismiss a complaint for failure to state a claim so
long as it provides notice of its intent to dismiss and an opportunity to respond. Id.
at 1248-49; see also Jefferson Fourteenth Assocs. v. Wometco de P.R., Inc., 695
F.2d 524, 527 (11th Cir. 1983) (“[C]ourts [can] exercise their inherent power to
dismiss a suit that lacks merit only when the party who brought the case has been
given notice and an opportunity to respond.”). The magistrate judge notified
McNiece of deficiencies in his original complaint and, after he filed an amended
complaint containing more errors, gave him a third opportunity to amend before
recommending that the district court dismiss the action.
We AFFIRM the denial of McNiece’s request to use the electronic filing
system. We VACATE the order dismissing the complaint for lack of subjectmatter jurisdiction and REMAND WITH INSTRUCTIONS for the district court
to dismiss for failure to state a claim.

14a

«SI

80* - XiaNMdV

USCA11 Case: 20-10716

Date Filed: 02/16/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 .uscourts.gov

February 16, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-10716-CC
Case Style: Adam McNiece v. Town of Yankeetown, et al
District Court Docket No: 1:19-cv-00323-AW-GRJ
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC/lt
Phone #: (404)335-6179
REHG-1 Ltr Order Petition Rehearing

16a

USCA11 Case: 20-10716

Date Filed: 02/16/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10716-EE

ADAM P. MCNIECE,
Plaintiff - Appellant,
versus
TOWN OF YANKEETOWN,
RALF BROOKES,
Attorney,
LEVY COUNTY,
STATE OF FLORIDA,
Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Florida

ON PETITIONS FOR REHEARING AND PETITIONtSt FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, WILSON and ROSENBAUM, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

17a

